No. 20-1499
IN THE

Supreme Court of the United States
AMERICAN CIVIL LIBERTIES UNION,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 14th day of September, 2021, I caused three copies of the Reply Brief for
Petitioner to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondent:
Brian H. Fletcher
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

U.S. Foreign Intelligence Surveillance
Court and U.S. Foreign Intelligence
Surveillance Court of Review
c/o Daniel Hartenstine
LITIGATION SECURITY GROUP
U.S. DEPARTMENT OF JUSTICE
2 Constitution Square
145 N Street, N.E.
Suite 2W-115
Washington, D.C. 20530
(202) 514-9016
Daniel.O.Hartenstine@usdoj.gov
Maura.L.Peterson@usdoj.gov

Amir C. Tayrani

2

